HHS/OIG, Audit -"Commonwealth of Virginia, Efforts to Account For and Monitor Sub-Recipients' Use of Bioterrorism
Hospital Preparedness Planning Program Funds,"(A-03-03-00384)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Commonwealth of Virginia, Efforts to Account For and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness
Planning Program Funds," (A-03-03-00384)
October 20, 2003
Complete
Text of Report is available in PDF format (309 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Virginia Department of Health (State agency) properly recorded,
summarized and reported bioterrorism preparedness transactions in accordance with the terms and conditions of the cooperative
agreements and whether the State agency has established controls and procedures to monitor sub-recipient expenditures of
Health Resources and Services Administration funds.  We determined that the State agency generally accounted for program
funds in accordance with the terms and conditions of the cooperative agreement and applicable departmental regulations
and guidelines.  However, the State agency did not segregate expenditures by phase, within phase, or by priority area.  The
State agency had a system in place to track and monitor sub-recipient activities.   We noted that there was
no site visit component as part of the memorandum of understanding developed by the State agency.